Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

December 1, 2020
BY ELECTRONIC FILING
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Barr v. Dai, No. 19-1155, and Barr v. Alcaraz-Enriquez, No. 19-1156

Dear Mr. Harris:
We represent the respondents in Barr v. Dai, No. 19-1155, and Barr v. Alcaraz-Enriquez, No.
19-1156, which have been consolidated for oral argument. Each respondent’s brief is currently
due on December 16, 2020. After consulting with counsel for petitioner, we respectfully request
that the Court extend the deadline for respondents’ briefs to January 4, 2021, under Rule 30.4.
Counsel for petitioner agrees to this proposed extension.
Respectfully submitted,
David J. Zimmer
Counsel of Record for Respondent
Ming Dai
in No. 19-1155
Neal K. Katyal
Counsel of Record for Respondent
Cesar Alcaraz-Enriquez
in No. 19-1156

cc:

Jeffrey B. Wall, Counsel of Record for Petitioner

Hogan Lovells US LLP is a limited liability partnership registered in the District of Columbia. “Hogan Lovells” is an international legal practice that includes Hogan Lovells US
LLP and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels Colorado Springs Denver Dubai Dusseldorf
Frankfurt Hamburg Hanoi Ho Chi Minh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami Milan Minneapolis
Monterrey Moscow Munich New York Northern Virginia Paris Perth Philadelphia Rome San Francisco São Paulo Shanghai Silicon Valley Singapore Sydney Tokyo
Warsaw Washington, D.C. Associated Offices: Budapest Jakarta Riyadh Shanghai FTZ Ulaanbaatar Zagreb. Business Service Centers: Johannesburg Louisville.
Legal Services Center: Berlin. For more information see www.hoganlovells.com

